             DEPARTMENT OF JUSTICE PROCESS FOR
          IDENTIFYING, PREVENTING, AND RECOVERING
             IMPROPER AND ERRONEOUS PAYMENTS

                            EXECUTIVE SUMMARY


       A key component to the President’s Management Agenda, which was
initiated in August 2001, is the reduction of improper and erroneous
payments.1 Improper and erroneous payments are payments that should
not have been made or were made for incorrect amounts because of errors,
poor business practices, or intentional fraud or abuse. According to the
Office of Management and Budget (OMB), payment mistakes typically occur
when agencies distribute benefits to ineligible applicants, overpay or
underpay beneficiaries, or make duplicate payments. Improper and
erroneous payments are a significant problem in the federal government,
and a recent report estimates that these payments exceed $45 billion
annually.2

      In recent years, legislation has been enacted to address this problem,
followed by implementation guidance from OMB. This legislation requires
governmental agencies to conduct program inventories and assess the
improper payment risk in each identified program. In addition, agencies
must annually report on progress made in identifying and recovering
improper payments.

      This audit assessed the Department of Justice’s (Department)
compliance with this legislation and evaluated its efforts to identify, prevent,
and recover improper and erroneous payments.


Background

     Two laws address the identification, prevention, and recovery of
improper payments. The first law, Public Law No. 107-300, the Improper
Payments Information Act of 2002 (IPIA), was enacted in November 2002.

      1
          The definitions for the terms “improper payment” and “erroneous payment” are
essentially the same, and we use these terms interchangeably throughout this report.
      2
        See OMB report entitled, Improving the Accuracy and Integrity of Federal
Payments, dated January 2005.
The IPIA requires the heads of federal agencies to annually: 1) identify
programs and activities susceptible to improper payments, 2) estimate the
amount of improper payments, and 3) report that estimate to Congress. In
addition, for improper payments estimated to exceed $10 million, the
agency must report the actions it is taking to reduce its improper payments,
including a discussion of the causes.

      In May 2003, OMB issued memorandum M-03-13 as guidance for
agencies to comply with the IPIA. This memorandum requires all federal
agencies to annually review and identify programs susceptible to significant
improper payments, which OMB defined as programs with annual improper
payments exceeding both 2.5 percent of program payments and $10 million.
Information on programs susceptible to significant improper payments must
be reported in each agency’s annual Performance and Accountability Report
(PAR). The PAR is an annual report that provides information on an
agency’s actual performance and progress in achieving the goals in its
strategic plan and performance budget.

      The second piece of legislation is Public Law No. 107-107, the National
Defense Authorization Act for FY 2002 (NDAA), Subchapter VI - Recovery
Audits, enacted in December 2001. This law requires all agencies that enter
into contracts totaling more than $500 million in a fiscal year to carry out a
cost effective program to identify errors in payments and recover amounts
erroneously paid. These actions are also known as “recovery audits.”

       In January 2003, OMB issued memorandum M-03-07 as guidance for
agencies implementing recovery audit activities. This memorandum
essentially mirrors the NDAA, requiring agencies with total contracts in
excess of $500 million in a fiscal year to carry out a cost-effective program
for identifying and recovering improper payments. This memorandum also
provides guidance on the disposition of recovered amounts and directs
affected agencies to submit annual reports detailing recovery audit activities.
This guidance states that “agency Inspectors General and other external
agency auditors are encouraged to assess the effectiveness of agencies’
recovery audit programs.”

       In July 2004, OMB issued further IPIA and recovery audit reporting
guidance in memorandum M-04-20. In addition to requiring information
relating to agency IPIA activities, this guidance requires recovery audit
activities to be included in the PAR for FY 2004 and annually thereafter.




                                     – ii –
       The Justice Management Division (JMD) is responsible for ensuring the
Department’s compliance with the laws, regulations, and guidance relating
to improper payments. JMD provides assistance to senior Department
officials relating to basic Department policy; provides direct administrative
support services; and develops and reviews the implementation of
Departmentwide policies, standards, and procedures. JMD provided IPIA
and recovery audit reporting instructions to Department components in a
memorandum dated August 2004.

      During August and September 2004, Department components
responded to JMD’s instructions by providing IPIA reports containing
information on improper and erroneous payments and the status of recovery
audit efforts. JMD compiled and combined all component responses,
prepared one consolidated response, and reported the results in the
Department’s PAR for FY 2004.

      As detailed in the following section, the components we reviewed were
in various stages of implementing a recovery audit effort.


Current Recovery Audit Efforts

      The BOP initiated a recovery audit program in September 2003, using
a private contractor, to identify its potential improper payments.3 Initially,
the contractor is reviewing BOP payments made from 1999 through 2004.
The contractor had not completed its review at the time our fieldwork ended
in November 2004. As of September 2004, a total of $216,656 in improper
payments had been identified and confirmed. The BOP had recovered
$211,251 of this amount, or nearly 98 percent.

       In October 2004, OJP signed an agreement with a private contractor to
initiate a recovery audit effort. In addition to the audits and reviews
conducted by its External Oversight Division, OJP officials plan to utilize this
recovery audit program to identify its improper payments. The contractor
will initially review payments from FY 2003 and FY 2004, but may expand
into earlier years, depending on the results of the initial review. Because
OJP is in the initial phases of this program, no improper payments had been
      3
          The Department piloted a recovery audit program in FY 2003 and FY 2004, using a
private contractor. This pilot included the Department’s Offices, Boards, and Divisions
(OBDs) and the BOP.




                                         – iii –
identified at the time of our fieldwork. However, OJP estimates that
approximately $1.3 million in improper payments will be identified and
recovered utilizing this program.

      The FBI does not yet have a formalized recovery audit program in
place. It does have an informal system to identify improper payments from
many sources, including voucher examiners, refund checks received, and
inquiries from vendors. In addition, it utilizes the results of internal reviews
at each field office and reviews conducted by its Inspections Division to track
improper payments. In FY 2004, the FBI identified $292,137 in improper
payments made in 2004, and had recovered $237,160, or 81 percent of
those payments, at the time of our fieldwork.

       We determined that the USMS does not have a mechanism in place to
identify improper payments, and did not have a recovery audit program in
place to quantify and collect improper payments. USMS officials asserted
that the USMS had a low risk of making improper payments because of
sufficient internal controls. As a result of the absence of a USMS recovery
audit program, no improper payments had been identified or recovered at
the time of our fieldwork.


Audit Approach

     This audit was requested by JMD. The objectives of our audit were to
determine whether the Department has: 1) established policies and
procedures for identifying and preventing improper and erroneous
payments, 2) determined the extent of improper and erroneous payments,
and 3) established methods to recover improper and erroneous payments.

       To achieve these objectives, we reviewed documentation and
interviewed officials at JMD and conducted interviews and reviewed policies
and procedures at four Department components.4 The components included
in this audit were selected based on several factors, including the number
and amount of vendor payments made in FY 2003 and FY 2004, the
completeness of associated IPIA reporting, whether a contractor was being
used for recovery audit activities, and the results of each component’s

       4
         Department components included in this audit were the Federal Bureau of
Prisons (BOP), Office of Justice Programs (OJP), Federal Bureau of Investigation (FBI), and
United States Marshals Service (USMS).



                                           – iv –
financial statement audit for FY 2004. Appendix I contains the details of our
component selection factors.

      At JMD, we assessed current Departmentwide efforts to comply with
provisions of the IPIA and the NDAA. At each of the four components, we
reviewed the reports submitted in accordance with the IPIA and assessed
each component’s current efforts for preventing, identifying, and quantifying
erroneous and improper payments. Further, we reviewed current recovery
audit efforts at each of the selected components.

      The results of the various aspects of our auditing work are described in
the following section.


Summary of Findings and Recommendations

      Identifying and Preventing Improper and Erroneous Payments

       In assessing the Department’s progress toward identifying and
preventing improper and erroneous payments, we reviewed laws and
regulations applicable to the IPIA. We also analyzed the reports each
component submitted in accordance with the IPIA, which included each
component’s risk assessment. We compared these reports to the IPIA
reporting requirements, and assessed each component’s compliance with
relevant requirements. In addition, we interviewed component officials and
reviewed policies and procedures used by the BOP, OJP, FBI, and USMS to
identify and prevent improper payments.

      We determined that the risk assessments conducted by the USMS and
OJP were not adequate to completely measure the risk of improper
payments in all programs the components administer. Further, we noted
that the IPIA reports prepared by the BOP, OJP, and USMS did not contain a
complete description of the risk assessments performed. We also found
weaknesses in certain policies and procedures used to prevent improper
payments at the FBI and USMS.

      We noted that none of the risk assessments included an analysis or
consideration of any material weaknesses, reportable conditions, or
noncompliance matters resulting from the component’s annual financial
statement audit. Based on the results of the Department’s consolidated
financial statement audit for FY 2004, we believe that a thorough risk


                                    –v–
assessment should include a review of any reportable conditions, material
weaknesses, or matters of noncompliance noted by the independent
auditors, and an analysis of whether those weaknesses or conditions could
potentially impact the risk of making improper payments.

      To address these issues, we recommended changes in each
component’s risk assessment processes, improvements in the reporting of
those risk assessments, and enhancements to the FBI’s and USMS’s policies
and procedures used to prevent improper payments.

      Determining the Extent of Erroneous and Improper Payments, and
      Methods to Recover Them

      To assess whether the Department had adequately determined the
extent of its improper payments and had established methods to recover
them, we: 1) reviewed laws and regulations applicable to recovery audits,
2) interviewed component officials responsible for recovery audit activities,
and 3) reviewed policies and procedures used by the components to
determine the extent of their improper payments and to recover them. In
addition, we reviewed policy guidance from JMD relating to recovery audits.

      We determined that the FBI, OJP, and USMS did not have processes in
place to determine the full extent of improper payments. As previously
noted, each component reviewed was at different stages in their efforts to
implement recovery audits. These audits are used to determine the
amounts of improper payments made and then recover them.

       Further, none of the four components audited had established a
fully-documented program to recover improper payments. While the BOP
and OJP had initiated a recovery audit program, they had not implemented
written policies and procedures for those programs. Further, the FBI and
USMS had not yet initiated any type of formalized recovery audit program.

       We also determined that Departmentwide recovery audit guidance
provided by JMD could be improved because there was a lack of consistency
among the components as it related to each component’s progress in
implementing and maintaining a recovery audit program. JMD did not have
an official reporting mechanism in place that would allow it to monitor each
component’s recovery audit activities on a regular, ongoing basis.




                                    – vi –
       To address these issues, we recommended that JMD implement
Departmentwide policies for recovery audits and for quarterly reporting of
recovery audit activities by each component. Further, we recommended
that each component develop and implement a comprehensive recovery
audit program, including written policies and procedures for each program.
Finally, we recommended that each component report its recovery audit
activities quarterly to JMD.

      Our audit results are discussed in greater detail in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology, appear in Appendix I. The audit criteria applied during our
work is described in Appendix II.




                                   – vii –
               DEPARTMENT OF JUSTICE PROCESS
        FOR IDENTIFYING, PREVENTING, AND RECOVERING
             IMPROPER AND ERRONEOUS PAYMENTS

                                TABLE OF CONTENTS


INTRODUCTION .................................................................................. 1

   Background ....................................................................................... 2

   Department of Justice Reporting Activities ............................................. 4

FINDINGS AND RECOMMENDATIONS ..................................................... 6

   I.      Policies and Procedures for Identifying and Preventing Improper
           and Erroneous Payments ........................................................... 6

           Federal Bureau of Prisons ........................................................ 7

           Office of Justice Programs ........................................................ 9

           Federal Bureau of Investigation .............................................. 10

           United States Marshals Service ............................................... 11

           Recommendations ................................................................ 13

   II.     Efforts to Determine the Extent of Improper and Erroneous
           Payments, and to Establish Methods to Recover Them ..................15

           Federal Bureau of Prisons ...................................................... 17

           Office of Justice Programs ...................................................... 18

           Federal Bureau of Investigation .............................................. 19

           United States Marshals Service ............................................... 19

           Recommendations ................................................................ 20
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 22

   Improper Payments Information Act of 2002 (Public Law 107-300)..........22

   National Defense Authorization Act for FY 2002, Subchapter VI
   (Public Law 107-107) .........................................................................22

   Office of Management and Budget Memorandum M-03-07 ......................23

   Office of Management and Budget Memorandum M-03-13 ......................24

   Office of Management and Budget Memorandum M-04-20 ......................24

STATEMENT ON INTERNAL CONTROLS ................................................. 26

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....................... 27

APPENDIX II - AUDIT CRITERIA .......................................................... 29

   Federal Legislation .............................................................................29

   Office of Management and Budget Policy Memoranda.............................29

   Justice Management Division Policies and Guidance ...............................31

APPENDIX III - THE PRESIDENT’S MANAGEMENT AGENDA ...................... 32

APPENDIX IV – CONSOLIDATED RESPONSE TO DRAFT REPORT ............... 33

APPENDIX V – ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
TO CLOSE REPORT.................................................................................39
                                    INTRODUCTION


      Federal agencies make more than $2 trillion in payments to individuals
and organizations each year. A recent report disclosed that federal agencies
made a total of $45.1 billion in improper and erroneous payments in fiscal
year (FY) 20045 Improper and erroneous payments are payments that
should not have been made or were made for incorrect amounts because of
errors, poor business practices, or intentional fraud or abuse. Improper and
erroneous payments are a significant problem in the federal government.

      The President’s Management Agenda (PMA) was implemented in
August 2001 as a strategy for improving the management and performance
of the federal government. It focuses on areas where deficiencies were
most apparent and where the government could begin to deliver concrete,
measurable results. The PMA includes five government-wide initiatives, one
of which is “Improved Financial Performance.”6 Included in that initiative are
requirements for the identification and reduction of improper or erroneous
payments within the federal government.

      The purpose of this audit was to determine whether the Department of
Justice (Department) has: 1) established policies and procedures to identify
and prevent improper and erroneous payments, 2) determined the extent of
improper and erroneous payments, and 3) established methods to recover
improper and erroneous payments.

      During this audit, we reviewed current laws, regulations, guidance,
and instructions to obtain an understanding of the requirements with which
federal agencies must comply. To assess Department efforts to identify,
prevent, and recover improper and erroneous payments, we conducted a
review of four Department components. The four components included in
this audit were the Federal Bureau of Prisons (BOP), Office of Justice
Programs (OJP), Federal Bureau of Investigation (FBI), and United States
Marshals Service (USMS). The components were selected based on several
factors, as detailed in Appendix I of this report. We conducted interviews of
component management, reviewed policies and procedures related to

      5
        See OMB report entitled, Improving the Accuracy and Integrity of Federal
Payments, dated January 2005.
      6
          These five initiatives are further detailed in Appendix III of this report.




                                              –1–
preventing and recovering improper payments, analyzed reports that were
submitted to JMD to determine whether the components complied with
applicable laws and regulations, and assessed the Department’s overall
compliance with relevant laws and regulations.

      The terms “erroneous payment” and “improper payment” have been
similarly defined by various sources. According to the Office of Management
and Budget (OMB), an erroneous payment is:

            Any payment that should not have been made or that was made
     in an incorrect amount under statutory, contractual, administrative, or
     other legally applicable requirement. Incorrect amounts are
     overpayments and under payments, including inappropriate denials of
     payment. An erroneous payment includes any payment that was
     made to an ineligible recipient or for an ineligible service. Erroneous
     payments are also duplicate payments, payments for services not
     rendered, and payments that do not account for credit for applicable
     discounts.

    The Government Accountability Office (GAO) defines improper
payments as:

            Payments that should not have been made or were made for
     incorrect amounts. Specifically, they include inadvertent errors, such
     as duplicate payments and calculation errors; payments for
     unsupported or inadequately supported claims; payments for services
     not rendered or rendered to ineligible beneficiaries; and payments
     resulting from fraud and abuse.

       Because these definitions are essentially the same, we use the terms
“improper payments” and “erroneous payments” interchangeably throughout
this report, and consider them synonymous.


Background

       Two laws address the identification, prevention, and recovery of
improper payments. The first, Public Law No. 107-300, the Improper
Payments Information Act of 2002 (IPIA), enacted in November 2002,
requires the heads of federal agencies to annually: 1) identify programs and
activities susceptible to improper payments; 2) estimate the annual amount
of improper payments and submit that estimate to Congress; and 3) for



                                   –2–
improper payments that exceed $10 million, the agency must report the
actions it is taking to reduce improper payments, including a discussion of
the causes.

      The second, Public Law No. 107-107, the National Defense
Authorization Act for FY 2002 (NDAA), Subchapter VI - Recovery Audits,
requires all agencies that enter into contracts with an annual total value in
excess of $500 million to carry out a cost-effective program to identify errors
and recover amounts erroneously paid. These programs are also known as
“recovery audits.”

      OMB has provided guidance for implementing these laws. Guidance on
the implementation of IPIA was originally issued by OMB in Circular A-11,
Section 57, in 2002. This circular required specifically identified agencies
with programs considered to be at high risk for improper payments to
investigate, identify, and report on improper payments. Examples of these
agencies and programs included the Department of Agriculture’s Food
Stamps program, the Department of Health and Human Services’ Medicare
and Medicaid programs, and the Social Security Administration’s Old Age and
Survivors’ Insurance program, among others. The Department of Justice
and its programs were not specifically identified in this document.

       In May 2003, OMB issued additional guidance in memorandum
M-03-13. This guidance requires all federal agencies to annually review and
identify programs susceptible to significant improper payments, defined as
programs with annual improper payments exceeding both 2.5 percent of
program payments and $10 million. For programs meeting this criteria,
agencies must: 1) provide a statistically valid estimate of the annual
amount of erroneous payments in its programs and activities; 2) identify the
precise reasons the identified programs are at risk; 3) implement a plan to
reduce erroneous payments, including the establishment of targets and
timelines; 4) report the estimates of the annual amount of erroneous
payments and progress in reducing them; and 5) provide other information
on management accountability, information systems and infrastructure, and
legal barriers. This information must be reported in each agency’s annual
Performance and Accountability Report (PAR).7




       7
        The PAR is an annual report that provides information on an agency’s actual
performance and progress in achieving the goals in its strategic plan and performance
budget.




                                          –3–
       OMB issued additional guidance relating to programs for identifying
and recovering improper payments in memorandum M-03-07, dated
January 2003. This guidance requires agencies with total contracts in excess
of $500 million in a fiscal year to carry out a cost-effective program for
identifying and recovering improper payments. This memorandum also
provides guidance on the disposition of recovered amounts and requires
affected agencies to submit annual reports detailing recovery audit activities.
Further, this guidance states that “agency Inspectors General and other
external agency auditors are encouraged to assess the effectiveness of
agencies’ recovery audit programs.”

       OMB issued further IPIA and recovery audit reporting guidance in
memorandum M-04-20, dated July 2004. In addition to requiring
information relating to agency IPIA activities, this guidance directs agencies
to include the following recovery audit information in the FY 2004 PAR:
1) a discussion of each agency’s recovery auditing effort, 2) the amount of
recoveries expected, 3) the actions taken to recover them, and 4) the
business process changes and internal controls instituted and/or
strengthened to prevent future occurrences.


Department of Justice Reporting Activities

      JMD is responsible for ensuring the Department’s compliance with the
laws, regulations, and guidance relating to improper payments. JMD
provided IPIA and recovery audit reporting instructions to Department
components in a memorandum dated August 2004. These instructions
support those set forth in the guidance provided in the above-referenced
OMB policy memoranda. The instructions required each component to
provide the following details:

   •   a description of the risk assessment performed and a list of susceptible
       programs;

   •   the statistical sampling methodology used, if applicable;

   •   the component’s plan to reduce improper payments;

   •   estimates of improper payments in future years;

   •   a description of the component’s recovery audit effort;




                                     –4–
  •   the steps the component is using to ensure that management is held
      accountable for reducing improper payments;

  •   whether the information systems and infrastructure are adequate to
      reduce improper payments; and if not, a description of the resources
      requested to improve its information systems and infrastructure;

  •   any statutory or regulatory barriers which may limit corrective actions
      in reducing improper payments; and

  •   additional comments on overall agency efforts, specific programs, best
      practices, or common challenges identified.

     In August and September 2004, Department components responded to
JMD’s instructions by providing IPIA reports containing information on
improper payments and the status of recovery audit efforts. JMD then
compiled and consolidated all component responses and prepared one
Departmentwide response, which was included in the PAR for FY 2004.




                                    –5–
                OIG FINDINGS AND RECOMMENDATIONS


I.    Policies and Procedures for Identifying and Preventing
      Improper and Erroneous Payments

      Our audit determined that the risk assessments conducted by the
      USMS and OJP were not adequate to completely measure the risk of
      improper payments in all programs administered. In addition, we
      found weaknesses in certain policies and procedures used to prevent
      improper payments at the FBI and USMS. These conditions could
      cause improper payments to go undetected and therefore not be
      recovered.

      Many of the causes of improper payments can be traced to the lack of
or an inadequate system of internal control. According to information
obtained from the Chief Financial Officers Council and the President’s Council
on Integrity and Efficiency, the causes for improper payments can be broken
down into the following three broad categories:

         •   A weak or incomplete program control environment: this
             includes the systems, procedures, and practices, including
             rigorous oversight, that can help prevent or correct improper
             payments.

         •   Risks inherent in the regulatory and policy structure: these
             define and support each federal program, and may stem directly
             from policy choices and mandates.

         •   A lack of governmentwide consistency, coordination, and
             standardization: this includes a lack of alignment of program
             eligibility policies, sharing of data, consistency in measuring
             improper payments, and dissemination of best practices.

       To accomplish the objectives of this audit, we interviewed component
officials and reviewed policies and procedures used by the BOP, OJP, FBI,
and USMS to identify and prevent improper payments. In addition, we
reviewed each component’s IPIA report, which included its program risk
assessment, and compared each report to the IPIA reporting requirements.




                                     –6–
       As detailed in the Introduction section of this report, the IPIA requires
a risk assessment of all programs to identify those that are susceptible to
significant improper payments. Guidance provided by OMB in accordance
with the IPIA requires each agency to conduct a full program inventory and
describe the risk assessment it performed on that inventory, including a
listing of all risk-susceptible programs.

       In reviewing the risk assessments conducted by the four components,
we noted that none of the assessments included an analysis or consideration
of the material weaknesses, reportable conditions, or noncompliance matters
resulting from the component’s annual financial statement audit.8 All of the
components reviewed had either material weaknesses, reportable conditions,
noncompliance matters, or some combination of the three reported in the
FY 2004 financial statement audits. In addition, the Department received an
overall disclaimer of opinion for its consolidated FY 2004 financial statement
audit based on the significance of the findings within OJP.

      In our opinion, certain internal control issues could increase the risk of
making improper payments. Thus, a thorough risk assessment should
include a review of any reportable conditions or material weaknesses noted
by the independent auditors and an analysis of whether those weaknesses or
conditions could potentially impact the risk of making improper payments.
The management of the components we reviewed, as well as JMD, agreed
that this would be useful information to include in future risk assessments.

      In addition to the consideration of the annual financial statement audit
results, we noted the following conditions during our review of policies and
procedures used to identify and prevent improper payments, and in the risk
assessments prepared by each component.


Federal Bureau of Prisons

      The Department piloted a recovery audit program in FY 2003 and
FY 2004, using a private contractor. This pilot included the Department’s
Offices, Boards and Divisions (OBDs) and the BOP. The BOP’s portion of the
recovery audit program was initiated in September 2003. This effort is

         8
             The Chief Financial Officer’s Act of 1990 establishes a leadership structure,
provides for long-range planning, requires audited financial statements, and
strengthens accountability reporting.




                                            –7–
designed to identify and recover improper payments. Initially, the
contractor is reviewing BOP’s payments made from 1999 through 2004 and
had not completed its review at the time our fieldwork ended in November
2004. As of September 2004, a total of $216,656 in improper payments had
been identified and confirmed. The BOP had recovered $211,251 of this
amount, or nearly 98 percent. Further information regarding the BOP’s
recovery audit program is detailed under Finding II of this report.

       According to BOP management, it has an internal control structure in
place to prevent improper payments.9 That structure includes written
policies and procedures, the use of customized forms for recording multiple
payments on one invoice, and the use of a three-tiered payment approval
process. In addition, controls are built into the BOP’s financial management
system, which generates a report of potential duplicate payments. The BOP
also has a Program Review Division, which conducts internal audits at BOP
institutions on a rotating basis, at least once every three years. These
audits include transaction testing. Finally, BOP policies state that certifying
officers are held accountable for each voucher they approve for payment.

      In August 2004, the BOP submitted a report to JMD in accordance with
the IPIA, which included a description of the BOP’s risk assessment.
However, according to BOP management, the assessment included in the
report was not representative of the assessment actually conducted. The
report indicated that the BOP’s risk assessment consisted only of the overall
opinion from of its annual financial statement audit and the results of its
recovery audit efforts, and did not contain details for the BOP’s program
inventory, as required.

       When we interviewed BOP managers, they stated they were unsure of
what specifically to report, because it was the first year these reports were
required. They also indicated that the risk of improper payments was
actually assessed in two primary payment program areas: vendor payments
and travel reimbursements. Further, they stated that the risk assessment
also included a review of internal controls and of its internal program
reviews.

       When we discussed this issue with BOP managers, they concurred with
our finding that the risk assessment detailed in the BOP’s IPIA report was


       9
         See the Statement on Internal Controls, at the back of this report, for details of
our review of BOP’s controls, policies, and procedures.




                                            –8–
not reflective of the assessment actually conducted, and agreed to include a
more complete risk assessment narrative in future IPIA reports.


Office of Justice Programs

       In October 2004, OJP signed an agreement with a private contractor to
initiate a recovery audit effort. In addition to the audits and reviews
conducted by its External Oversight Division, OJP officials plan to utilize this
recovery audit effort to identify its improper payments. Initially, the
contractor will review payments from FY 2003 and FY 2004, but may expand
into earlier years, depending on the results of the initial review. Because
OJP is in the initial phases of this program, no improper payments had been
identified at the time of our fieldwork. However, OJP estimates that
approximately $1.3 million in improper payments will be identified and
recovered utilizing this program. Further information regarding OJP’s
recovery audit program is detailed under Finding II of this report.

       According to OJP management, there is an internal control structure in
place to prevent improper payments.10 That structure includes written
policies and procedures for processing invoices, internal audits, the use of
reports to compare obligations to source documents, and controls built into
OJP’s financial management system, including an invoice tracking system.
In addition, OJP policies state that certifying officers are held accountable for
payments they approve. OJP’s External Oversight Division conducts reviews
of grantees using a risk-based model, and these reviews include transaction
testing.

      In August 2004, OJP submitted a report to JMD in accordance with the
IPIA, which included a description of OJP’s risk assessment. In its report,
OJP stated that it “has encountered no instances of improper grant
payments.” When we asked OJP management about this statement, we
were told that OJP’s FY 2004 internal reviews revealed no instances of
payments being made to incorrect grantees, and the statement did not refer
to unallowable costs or funds not used in accordance with grant conditions.
In FY 2004, OJP reported making over 82,000 grant payments totaling
nearly $5.7 billion. In our judgment, the magnitude of these payments
poses a significant risk of improper payments to incorrect grantees.


       10
          See the Statement on Internal Controls, at the back of this report, for details of
our review of OJP’s controls, policies, and procedures.




                                            –9–
       In addition, the program inventory and assessment included in OJP’s
IPIA report was inadequate and incomplete. This program inventory and
assessment only included grant payments and not any other payments made
by OJP, such as vendor payments, travel reimbursements, and payments
made under various initiatives, such as the Southwest Border Prosecution
Initiative, Bulletproof Vest Partnership, or the State Criminal Alien Assistance
Program. The lack of a complete risk assessment of improper payments was
also identified as a noncompliance issue during OJP’s independent financial
statement audit for FY 2004.11

       When we discussed this issue with OJP managers, they concurred with
our finding and agreed to conduct a complete program inventory and risk
assessment, and include the results in future IPIA reports.


Federal Bureau of Investigation

       The FBI does not yet have a formalized recovery audit program in
place, but FBI managers stated that the FBI utilizes several methods to
identify improper payments. The FBI has an informal system to identify
improper payments from many sources, including voucher examiners, refund
checks received, and inquiries from vendors. In addition, the FBI utilizes the
results of internal reviews at each field office and reviews conducted by its
Inspections Division to identify potential improper payments. Improper
payments are tracked and monitored on a spreadsheet. In FY 2004, the FBI
identified $292,137 in improper payments made in 2004. It had recovered
$237,160 or 81 percent of those payments at the time of our fieldwork. Our
recommendation to implement a recovery audit program, which is detailed in
Finding II of this report, addresses the lack of a formalized system to
identify improper payments.

       According to the FBI’s management, it has an internal control
structure in place to prevent improper payments.12 That structure includes
written policies and procedures, the use of exception reports, the monthly
closing process of its financial management system, and ongoing employee
training. In addition, the FBI has two internal review functions – one at the

       11
          OJP’s noncompliance with the IPIA was noted in the Report of Independent
Auditors on Compliance and Other Matters, issued by PricewaterhouseCoopers LLP, dated
October 27, 2004.
       12
          See the Statement on Internal Controls, at the back of this report, for details of
our review of FBI’s controls, policies, and procedures.




                                           – 10 –
field office level and the other by its Inspections Division. These reviews are
conducted on a rotating basis and include transaction testing. FBI officials
also stated that all employees are responsible for reducing improper
payments, and this element is included in the FBI management’s
Performance Work Plans.

      During our fieldwork we determined that the FBI had a Desk Guide
that contained invoice processing procedures. However, we could not verify
that this guide had been provided to the appropriate personnel. For
example, when we asked to review a copy of this guide, employees
responsible for processing invoices could not produce one. When we
brought this to the attention of FBI management, we were provided with a
copy of the guide.

      We believe that employees who process invoices should have direct
access to written policies and procedures, which are a necessary control to
help prevent improper payments. FBI management concurred with our
observation and agreed to provide each employee responsible for processing
invoices with a copy of this guide.

      In September 2004, the FBI submitted a report to JMD in accordance
with the IPIA, which included a thorough program inventory and a
description of its risk assessment. The report contained all of the required
elements, and we noted no deficiencies in the report.


United States Marshals Service

       The USMS does not have a mechanism in place to identify improper
payments. USMS officials asserted the USMS had a low risk of making
improper payments because of sufficient internal controls. Thus, no
improper payments had been identified or recovered. During this audit, we
did not conduct a complete assessment or testing of the USMS’ internal
control structure, so we do not endorse this assertion. While we
acknowledge that a solid internal control structure can be instrumental in
reducing the risk of making improper payments, it does not necessarily
eliminate the occurrence of improper payments, and therefore it is crucial for
the USMS to have a mechanism in place to identify improper payments
actually made. The results of a recovery audit program could be utilized to
identify specific programs with improper payments. Thus, our
recommendation to implement a recovery audit program, which is detailed




                                    – 11 –
under Finding II of this report, addresses the lack of a formalized system to
identify improper payments.

      According to USMS management, the USMS’s internal control structure
includes written policies and procedures, controls built into its financial
management systems, and a multi-tiered invoice review and approval
process.13 Further, USMS officials stated that they relied on their annual
financial statement audit’s opinion, past and ongoing audits by the Office of
the Inspector General, and internal controls as a basis for asserting that it
doesn’t make improper payments.

      Officials in the USMS’s Prisoner Services Division also stated that
reviews had not been conducted at the district office level in the past
three to four years due to budget constraints and an ongoing reorganization
of the division. A recent restructuring has led to the creation of two
organizations, the Inspections Division and Internal Affairs, which the USMS
states will begin routine reviews of district offices and detention agreements
that will include transaction testing. Policies for this function were in the
draft stages at the time of our fieldwork, and USMS personnel believed that
these reviews would begin in early 2005. In our judgment, these reviews
are an important internal control for identifying and preventing potential
improper payments, and we agree they should include transaction testing of
prior payments.

       In September 2004, the USMS submitted a report to JMD in
accordance with the IPIA, which included a very brief description of its risk
assessment. However, we concluded that the assessment in the report was
inadequate and incomplete. It contained only a limited summary of prior
audit results. In addition, the report did not contain details of the USMS’s
program inventory, as required by OMB guidance. According to USMS
officials, no program inventory was conducted. For the risk assessment, the
USMS selected a judgmental sample of 15 invoices from all invoices paid in
FY 2004 that exceeded $400,000. Those payments were then traced back to
supporting documentation, and no improper payments were found.

     When we reviewed the sample of 15 invoices, we noted that the
payments did not include those made from all USMS programs (e.g. travel
and purchase cards, employee reimbursements, prisoner medical payments,
detention agreement payments, and witness security payments). Further,

       13
          See the Statement on Internal Controls, at the back of this report, for details of
our review of USMS’s controls, policies, and procedures.




                                           – 12 –
we believe that the $400,000 threshold is too high, because improper
payments can occur at levels far below $400,000.

      When we discussed these issues with USMS officials, they concurred
with our findings. They agreed to conduct a complete program inventory,
lower the threshold for future risk assessments so that payments from all
programs are tested, and include a complete description of this program
inventory and risk assessment in future IPIA reports.


Recommendations:


     We recommend that the BOP:

1.   Ensure that its future risk assessment, required to be in its IPIA
     report, contains: 1) the results from its most recent financial
     statement audit, including any material weaknesses or reportable
     conditions; 2) the effect of those weaknesses or conditions on its risk
     of making improper payments; and 3) a description of the corrective
     actions taken to address those weaknesses or conditions.

2.   Ensure that future IPIA reports include a complete description of the
     risk assessment performed on each of the programs in its program
     inventory.


     We recommend that OJP:

3.   Ensure that its future risk assessment, required to be in its IPIA
     report, contains: 1) the results from its most recent financial
     statement audit, including any material weaknesses or reportable
     conditions; 2) the effect of those weaknesses or conditions on its risk
     of making improper payments; and 3) a description of the corrective
     actions taken to address those weaknesses or conditions.

4.   Conduct a complete program inventory, perform a risk assessment for
     each identified program, and maintain the documentation of this
     program inventory and risk assessment.




                                   – 13 –
5.    Ensure that future IPIA reports include a complete description of the
      risk assessment performed for each of the programs in its program
      inventory.


      We recommend that the FBI:

6.    Ensure that its future risk assessment, required to be in its IPIA
      report, contains: 1) the results from its most recent financial
      statement audit, including any material weaknesses or reportable
      conditions; 2) the effect of those weaknesses or conditions on its risk
      of making improper payments; and 3) a description of the corrective
      actions taken to address those weaknesses or conditions.

7.    Provide a copy of its Desk Guide for invoice processing procedures to
      all relevant employees, ensuring that all employees certify that they
      have received a copy.


      We recommend that the USMS:

8.    Ensure that its future risk assessment, required to be in its IPIA
      report, contains: 1) the results from its most recent financial
      statement audit, including any material weaknesses or reportable
      conditions; 2) the effect of those weaknesses or conditions on its risk
      of making improper payments; and 3) a description of the corrective
      actions taken to address those weaknesses or conditions.

9.    Conduct a complete program inventory, perform a risk assessment for
      each identified program, and maintain the documentation of this
      program inventory and risk assessment.

10.   Ensure that future IPIA reports include a complete description of the
      risk assessment performed for each of the programs in its program
      inventory.

11.   Provide documentation, including formalized policies and procedures,
      for the implementation of an ongoing internal review program, which
      includes transaction testing.




                                    – 14 –
II.   Efforts to Determine the Extent of Improper and Erroneous
      Payments, and to Establish Methods to Recover Them

      Our audit determined that the FBI, OJP, and USMS did not have
      processes in place to determine the full extent of improper payments
      made. Further, none of the four components we audited had
      established a fully-documented program to recover improper
      payments. We also found that recovery audit guidance provided by
      JMD could be improved. These conditions result from component
      management not placing priority on implementing a recovery audit
      effort, and from the lack of a comprehensive Departmentwide recovery
      audit program policy. These conditions increase the risk of improper
      payments not being identified and recovered, and in the Department
      not being in full compliance with Public Law 107-107, which requires
      each agency to have a recovery audit program in place.

     Measuring the extent of improper payments is an essential step in
assessing the need for and types of corrective actions required to manage
improper payments and help ensure efficient and effective program
operations. According to the GAO, “nondisclosure of improper payment
amounts may indicate the absence of a significant level of improper
payments or that agencies are unable to or did not attempt to determine or
estimate the amount of improper payments in their programs or activities.”14

      It is difficult for a component to be able to accurately assess the
extent of its improper payments if it does not have a recovery audit program
in place. A recovery audit program includes a comprehensive review of prior
payments to determine whether they were improper. A recovery audit
program looks for several types of improper payments, including:
1) duplicate payments, 2) payments made that were not in accordance with
an applicable contract, 3) payments made for incorrect amounts,
4) payments for which allowable discounts were not taken, and 5) payments
made for goods or services not received. While recovery audits can serve as
an important vehicle for recovering improper payments already made, the
results of these audits can also be used to determine the extent of improper
payments and to identify systemic control weaknesses.




      14
         GAO-02-131R, Financial Management: Improper Payments Reported in Fiscal Year
2000 Financial Statements, dated November 2, 2001.




                                      – 15 –
      During our audit, we reviewed the laws and regulations applicable to
recovery audit activities. In addition, we reviewed the policies and
procedures used by the BOP, FBI, OJP, and USMS to quantify and recover
improper payments. We also interviewed officials at each of these
components who were responsible for recovery audit activities, and we
reviewed policies implemented by JMD relating to recovery audits.

       When conducting audit work at JMD, we determined that a written
policy for recovery audits for the Department’s OBDs had been implemented,
but no recovery audit policy for other Department components had been
established. According to JMD management, the Department had mandated
that all components establish and implement a recovery audit program, but
JMD had not implemented an official policy because it wanted to allow each
component time to develop a policy that would best fit its individual and
unique circumstances. However, during our audit of the four components,
we determined that each component’s recovery audit effort was in different
stages of development and implementation. Under these circumstances, we
believe the development and implementation of a Departmentwide policy
could ensure that each Department component is undertaking adequate
efforts to recover improper payments.

       For example, the BOP and OBDs had contracted with a private
recovery audit contractor to identify improper payments. This effort began
in late FY 2003 and early FY 2004. As of September 2004, a total of
$1,156,949 in improper payments had been identified, and $959,108 or
nearly 83 percent had been recovered.15 However, as detailed in the
following pages of this report, OJP signed an agreement to initiate recovery
audit activities in October 2004. Thus, OJP’s recovery audit program was in
the initial stages at the time of our fieldwork, so no improper payments had
yet been identified or recovered. Further, the FBI had only begun
researching options for a recovery audit program, and had not yet
implemented a formal program. The USMS had no recovery audit program
in place and had not made any decisions regarding the implementation of a
program at the time of our fieldwork.

      Because of this lack of consistency among Department components,
we believe that a Departmentwide recovery audit policy is necessary. This
policy should include the scope (e.g. which years and payment amount
thresholds), the types of payments that must be included in each

      15
         Of the $1,156,949 in total improper payments found, BOP’s portion was
$216,656, and $211,251 had been recovered.




                                        – 16 –
component’s program (e.g. vendor payments, grant payments, contract
payments, and detention and intergovernmental service agreement
payments), and payment search criteria (e.g. data fields within automated
financial systems). In addition, some components we audited agreed that
Departmentwide guidance would be beneficial. When we discussed this
issue with JMD officials, they agreed that enough time had passed and they
would now develop and implement a Departmentwide policy for recovery
audits.

        We also noted that JMD did not have an official reporting mechanism
for it to monitor each component’s recovery audit activities on a regular,
ongoing basis. While each component is required to report all recovery audit
activities for the Department’s annual PAR, no structure for monitoring
ongoing progress reports existed. In our opinion, regular status reporting to
JMD of each component’s recovery audit activities and accomplishments
would not only allow JMD to monitor the Department’s ongoing progress, but
would also encourage each component to focus on its recovery audit efforts.

      We discussed this issue with JMD officials and they agreed that
quarterly status reporting for recovery audit activities would be helpful in
monitoring the Department’s progress. They agreed to prepare and
implement a written policy.


Federal Bureau of Prisons

      Our audit found that the BOP had determined the extent of its
improper payments and had established a method for recovery. As
previously mentioned, the BOP was using a contractor to conduct recovery
audits. This effort started in September 2003 and payments made from
1999 through 2004 are now being reviewed. While the effort is ongoing, as
of September 2004, $216,656 in improper payments had been identified,
and $211,251 or nearly 98 percent had been recovered.

       However, we noted that the BOP had not implemented written policies
and procedures for its recovery audit program. In our judgment, written
policies and procedures are an important aspect of any program, and should
include information such as: 1) methodology and scope of transactions,
2) types of programs and payments, 3) search criteria, 4) information on the
identification and confirmation of identified payments, and 5) details of the
collection process. We discussed this with BOP officials and they agreed to




                                    – 17 –
establish and implement written procedures for BOP’s recovery audit
program.


Office of Justice Programs

       Our audit found that OJP had not determined the extent of its
improper payments, but had established a method of recovery. As
previously detailed, OJP contracted with a private company to conduct
recovery audits of its vendor payments. The contract was signed in October
2004. As of the time of our fieldwork, no improper payments had been
identified or recovered. The initial phases of the program will focus on
payments made in FY 2003 and FY 2004, and depending on the results of
the audits, may then be expanded to prior years. In our opinion, this
recovery audit program, once fully implemented, will enhance OJP’s ability to
determine the extent of its improper payments and recover those payments.
In addition, we believe that the scope of these audits should extend beyond
2003, and should be addressed in a Departmentwide recovery audit policy.

       OJP’s recovery audit effort does not include a review of grant
payments. Officials at OJP stated that its External Oversight Division
reviews grant payments and its internal audit group will begin examining
payments made under its State Criminal Alien Assistance Program. In
addition, they believed that these reviews, combined with the recovery
audits being conducted by the contractor, satisfied the intent of the IPIA.
However, we noted that OJP’s IPIA report and risk assessment only included
grant payments. In FY 2004, OJP reported making over 82,000 grant
payments totaling nearly $5.7 billion. While the IPIA and OMB guidance do
not address specific types of payments, because of the volume of these
grant payments and the resultant potential improper payment risk we
believe that OJP’s grant payments should be included in its recovery audit
effort.

       Further, OJP had not implemented written policies and procedures for
its recovery audit program. In our judgment, written policies and
procedures are an important aspect of any program, and should include
information such as: 1) methodology and scope of transactions, 2) types of
programs and payments, 3) search criteria, 4) information on the
identification and confirmation of identified payments, and 5) details of the
collection process. We discussed this with OJP officials and they agreed to
establish and implement written policies and procedures for their recovery
audit program.



                                   – 18 –
Federal Bureau of Investigation

       We determined that the FBI did not have processes in place to
determine the full extent of its improper payments, and it did not have a
formalized mechanism to recover improper payments already made. As
mentioned previously, the FBI has an informal process to identify improper
payments. In FY 2004, the FBI identified $292,137 in improper payments
and had recovered $237,160 or 81 percent of those payments at the time of
our fieldwork. However, these payments were usually discovered as the
result of a vendor call or the FBI receiving a refund check for a duplicate
payment made. They likely do not represent the full extent of improper
payments made by the FBI.

       Each component within the Department must have a recovery audit
program in place so that the Department is in compliance with Public Law
107-107. Therefore, the FBI should develop and implement a formalized
recovery audit program, including written policies and procedures that
include the following information: 1) methodology and scope of
transactions, 2) types of programs and payments, 3) search criteria,
4) information on the identification and confirmation of identified payments,
and 5) details of the collection process. This recovery audit program, once
fully implemented, will enhance the FBI’s ability to determine the extent of
its improper payments and recover those payments. We discussed this with
FBI officials and they agreed to establish and implement a recovery audit
program, including written policies and procedures.


United States Marshals Service

     We determined that the USMS did not have processes in place to
determine the extent of its improper payments, and did not have a
formalized mechanism to recover improper payments already made. As
mentioned previously, USMS officials stated they did not believe the USMS
made any improper payments because of sufficient internal controls.
Therefore, no recovery audit program was in place to quantify and collect
improper payments.

     Each component within the Department must have a recovery audit
program in place for the Department to be in compliance with Public
Law 107-107. Therefore, the USMS should develop and implement a
formalized recovery audit program, including written policies and procedures




                                   – 19 –
that include the following information: 1) methodology and scope of
transactions, 2) types of programs and payments, 3) search criteria,
4) information on the identification and confirmation of identified payments,
and 5) details of the collection process. This recovery audit program, once
fully implemented, will enhance the USMS’s ability to determine the extent
of its improper payments and recover those payments. We discussed this
with USMS officials and they agreed to establish and implement a recovery
audit program, including written policies and procedures.

       In conclusion, while some components within the Department have
policies and procedures in place to identify and prevent improper payments,
some component’s policies and procedures are lacking, and others do not
have any policies and procedures. In addition, there is significant variance
in each component’s progress in implementing a recovery audit program.
The recommendations in this report will help ensure that all components
make progress toward compliance with applicable laws, regulations, and
guidance pertaining to improper payments.


Recommendations:


      We recommend that JMD:

12.   Develop and implement a Departmentwide recovery audit policy,
      which defines the scope, types of payments, and criteria to be
      included in each component’s recovery audit program.

13.   Implement a policy for Department components to report quarterly on
      recovery audit activities, including 1) current activities, 2) amounts of
      improper payments identified and recovered, and 3) planned activities
      for the following quarter.


      We recommend that the BOP:

14.   Develop and implement written policies and procedures for its
      recovery audit program, in accordance with guidance received from
      JMD.

15.   Report recovery audit activities and accomplishments quarterly to JMD,
      in accordance with guidance received from JMD.



                                    – 20 –
      We recommend that OJP:

16.   Develop and implement written policies and procedures for its
      recovery audit program, in accordance with guidance received from
      JMD.

17.   Ensure that its recovery audit program addresses and includes grant
      payments.

18.   Report recovery audit activities and accomplishments quarterly to JMD,
      in accordance with guidance received from JMD.


      We recommend that the FBI:

19.   Develop and implement a comprehensive recovery audit program,
      including written policies and procedures, in accordance with guidance
      received from JMD.

20.   Report recovery audit activities and accomplishments quarterly to JMD,
      in accordance with guidance received from JMD.


      We recommend that the USMS:

21.   Develop and implement a comprehensive recovery audit program,
      including written policies and procedures, in accordance with guidance
      received from JMD.

22.   Report recovery audit activities and accomplishments quarterly to JMD,
      in accordance with guidance received from JMD.




                                   – 21 –
                STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS


      As required by Government Auditing Standards, we reviewed records
and other documents pertaining to improper and erroneous payments to
obtain reasonable assurance about each component’s compliance with
applicable laws and regulations, that, if not complied with, could have a
material effect on the Department’s overall compliance with those laws and
regulations. Compliance with laws and regulations applicable to improper
and erroneous payments is the responsibility of each component’s
management. An audit includes examining, on a test basis, evidence about
compliance with laws and regulations. The legislation pertinent to this audit
and the applicable regulations it contains are as follows:

Improper Payments Information Act of 2002 (Public Law 107-300)

       This law requires agency heads to:

   •   identify programs and activities susceptible to significant improper
       payments;

   •   estimate the annual amount of improper payments and report that
       estimate to Congress; and

   •   report the actions taken to reduce improper payments, including
       possible causes, whether the information system and infrastructure
       are adequate, a description of the resources requested if the
       information system and infrastructure were deemed inadequate, and a
       description of the steps in place to ensure agency heads are held
       accountable for reducing improper payments.


National Defense Authorization Act for FY 2002, Subchapter VI
(Public Law 107-107)

       This law contains requirements for recovery audits. Specifically, it:

   •   requires all agencies with total contracts in excess of $500 million to
       carry out a recovery audit program for identifying errors and
       recovering amounts erroneously paid;



                                     – 22 –
  •   limits the availability of collected funds to reimburse actual expenses
      incurred by the executive agency in administering the program and to
      pay contractors for services provided under the program;

  •   permits unused funds to be credited to appropriations, or if no
      appropriation is available, to be deposited in the Treasury as
      miscellaneous receipts;

  • requires agencies to consider all available resources when deciding on
      a recovery audit program, including the executive agency, other
      departments and agencies, and private sector sources; and

  •   allows management to carry out improvement programs addressing
      problems that contribute to errors in paying contractors and in order to
      improve the recovery of overpayments.


Office of Management and Budget Memorandum M-03-07

      This memorandum provided guidance on the implementation of
Public Law 107-107. Specifically, it:

  •   required agencies to implement a recovery audit program when the
      annual value in total contracts exceeds $500 million;

  •   established reporting requirements for recovery audit efforts, which
      must include a description of the program including steps to carry out
      the program, total costs of the program, total amount of payment
      errors identified, total amount deemed not recoverable, total amount
      recoverable, total amount outstanding pending final collection, a
      description and evaluation of any management improvement programs
      carried out, and a description of classes of contracts excluded;

  •   mandated that agency heads ensure that recovery audits do not result
      in a duplicative audit of contractor records;

  •   requested agencies to question why errors are occurring and try to
      prevent them;




                                   – 23 –
  •   stated that “agency Inspectors General and other external agency
      auditors are encouraged to assess the effectiveness of agencies’
      recovery audit programs;” and

  •   specified the disposition of recovered amounts.


Office of Management and Budget Memorandum M-03-13

      This memorandum provided guidance on the implementation of
Public Law 107-300. Specifically, Memorandum M-03-13 explained that it
supersedes Section 57 of OMB Circular A-11 and that all improper payment
reporting beginning in FY 2004 should follow this guidance. Also, this
memorandum requires agencies to:

  •   review all programs and activities and identify those susceptible to
      significant improper payment (significant improper payments are those
      in a program annually exceeding both 2.5 percent of program
      payments and $10 million);

  •   estimate the annual amount of significant improper payments in all
      programs and activities, which is a gross total of both over and under
      payments;

  •   implement a plan to reduce significant improper payments; and

  •   report estimates of annual improper payments and the progress in
      reducing them in the Management Discussion and Analysis section of
      its PAR.


Office of Management and Budget Memorandum M-04-20

      This memorandum provided guidance on IPIA and recovery audit
reporting. Specifically, it:

  •   required agencies to provide a summary including progress and plans
      to reduce improper payments in the Management Discussion and
      Analysis section of the PAR in order to comply with M-03-13;

  •   provided details of the report format, which included a risk
      assessment; a description of statistical sampling used to estimate



                                   – 24 –
     improper payments; corrective action plans; an improper payment
     reduction outlook; a discussion of the recovery audit effort; actions to
     ensure agency managers are held accountable for reducing improper
     payments; a description of the adequacy of the information system
     and infrastructure; and a description of any legal or regulatory barriers
     which could limit corrective actions in reducing improper payments.



                              ♦      ♦      ♦

      Our tests revealed that the DOJ components we reviewed did not fully
comply with the above laws and regulations, as detailed in the body of this
report.




                                   – 25 –
              STATEMENT ON INTERNAL CONTROLS


      In planning and performing our audit, we considered Department
components’ internal controls for the purpose of determining our auditing
procedures. We also reviewed various controls over the payment processes
at these components to develop an understanding of those processes. In
addition, we conducted a limited review of the controls, including policies
and procedures, which the BOP, FBI, OJP, and USMS represented were in
place to prevent improper payments. However, these reviews did not
include an overall assessment or testing of the internal control structure.
Therefore, these reviews were not made for the purpose of providing
assurance on the internal control structure as a whole. However, we noted
certain matters that we consider to be reportable conditions under generally
accepted Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal control
structure that, in our judgment, could increase the risks of making improper
payments or could hinder the implementation of cost-effective recovery
audit programs. We noted deficiencies relating to the identification and
prevention of improper payments, discussed in Finding No. 1. We also noted
deficiencies concerning recovery audit efforts, discussed in Finding
No. 2. However, we did not consider these deficiencies to be a result of
systemic internal control issues.

      Because we are not expressing an opinion on the components’ internal
control structure as a whole, this statement is intended solely for the
information and use of JMD, BOP, FBI, OJP, and USMS in overseeing each
component’s compliance with the IPIA, and with implementing and
administering a recovery audit program within each component.




                                   – 26 –
                                                                    APPENDIX I


                OBJECTIVES, SCOPE, AND METHODOLOGY


       The objectives of our audit were to determine whether the Department
has:

       1.       established policies and procedures for identifying and
                preventing improper and erroneous payments,

       2.       determined the extent of improper and erroneous payments, and

       3.       established methods to recover improper and erroneous
                payments.

     We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were considered necessary to
accomplish the audit objectives.

      The audit generally covered activities through the conclusion of our
fieldwork in November 2004. Audit work was conducted at the Justice
Management Division and at the four Department components selected for
review: 1) Federal Bureau of Prisons, 2) Federal Bureau of Investigation,
3) Office of Justice Programs, and 4) United States Marshals Service.

      These components were selected based on a number of factors,
including:

            •   the total number and dollar amount of vendor payments made in
                FY 2003 and FY 2004;

            •   our review and analysis of reporting submitted in accordance
                with the IPIA;

            •   the agency’s current recovery audit activities, and whether the
                component was using a contractor for these efforts or whether it
                was conducting the recovery audits in-house; and

            •   the results of each agency’s annual financial statement audit for
                FY 2004.




                                       – 27 –
                                                                  APPENDIX I

    We conducted onsite work at the JMD and at each of the four
components in November 2004. We interviewed staff members at each
component to:

         •   obtain an understanding of the procedures and rationale used
             when completing its IPIA reports,

         •   gather information relating to the payment processes,

         •   identify the controls in place to prevent or reduce improper
             payments,

         •   obtain an understanding of any processes used to identify and
             quantify improper payments already made, and

         •   assess any current recovery audit activities.

     In addition, we reviewed policies, procedures, and other
documentation related to these issues.

       Finally, we interviewed officials of the recovery audit contractor being
utilized by selected Department components and OBDs. We obtained
information on its current efforts within the Department, including the
processes used, the results achieved, and anticipated future activities.




                                     – 28 –
                                                              APPENDIX II


                           AUDIT CRITERIA


Federal Legislation

      Improper payments and recovery audits are described in Public Law
No. 107-300, the Improper Payments Information Act of 2002 (IPIA), and in
Public Law No. 107-107, the National Defense Authorization Act for FY 2002
(NDAA), Subchapter VI – Recovery Audits. The IPIA called for the heads of
federal agencies to identify programs and activities susceptible to improper
payments, estimate the annual amount of improper payments and report
that estimate to Congress, and when improper payments exceed $10 million,
report the actions taken to reduce improper payments.

      The NDAA primarily addressed recovery audits. Recovery audits are
programs to identify errors and recover amounts improperly or erroneously
paid. An agency is required to carry out a recovery audit program when its
annual value of total contracts exceeds $500 million. Each agency is also
encouraged to consider all resources available when establishing its recovery
audit program.


Office of Management and Budget Policy Memoranda

      The first OMB policy memorandum to address improper payments was
Memorandum M-03-07, dated January 2003. This memorandum required
agencies to establish a recovery audit program and report the progress
made in reducing improper payments when the annual total value of its
contracts exceeds $500 million. Agencies are required to provide
information about recovery audit programs and progress in reducing
improper payments, including:

  •   steps taken to carry out a recovery audit program;

  •   total costs of the recovery audit program, separately reporting the
      costs of the agency's recovery audit program activities and contracted
      recovery audit services;

  •   the total amount of payment errors identified, total amount deemed
      not recoverable, total amount recoverable, total amount outstanding
      pending final collection;




                                   – 29 –
                                                                APPENDIX II

  •   a description and evaluation of any management improvement
      program carried out; and

  •   a description of classes of contracts excluded.

      Four months after M-03-07, OMB issued Memorandum M-03-13,
defining significant improper payments to be total improper payments in a
program exceeding both 2.5 percent of the program payments and
$10 million. This memorandum made it mandatory for agencies to review
and identify programs susceptible to significant improper payments,
estimate the annual amount of significant improper payments, implement a
plan to reduce those improper payments, and report this information in the
annual PAR.

     In July 2004, Memorandum M-04-20 was issued, which established the
format for agencies to report IPIA activities and plans to reduce improper
payments in the annual PAR. The report format required:

  •   a risk assessment,

  •   a description of statistical sampling used to estimate improper
      payments,

  •   any corrective action plans,

  •   an improper payment reduction outlook,

  •   a description of the recovery audit effort,

  •   a description of actions to ensure agency managers are held
      accountable for reducing improper payments,

  •   a description of the adequacy of the information system and
      infrastructure, and

  •   a description of any legal or regulatory barriers which could limit
      corrective actions in reducing improper payments.




                                     – 30 –
                                                               APPENDIX II

Justice Management Division Policies and Guidance

       Policies and guidance issued by JMD served as an additional source of
audit criteria for our audit. These policies were generally in the form of
memoranda and pertained to providing guidance to Department components
in connection with the implementation of the federal legislation and OMB
policies, referenced in the previous two pages. The policies followed those
contained in OMB memoranda pertaining to IPIA reporting and recovery
audits.




                                   – 31 –
                                                                     APPENDIX III


            THE PRESIDENT’S MANAGEMENT AGENDA


      According to a report from the OMB, the President’s Management
Agenda (PMA), enacted in August 2001, is a strategy for improving the
management and performance of the federal government. It focuses on the
areas where deficiencies were most apparent and where the government
could begin to deliver concrete, measurable results. The PMA includes the
following five government-wide initiatives:16

   •   Strategic Management of Human Capital – having processes in place to
       ensure the right person is in the right job, at the right time, and is not
       only performing, but performing well;

   •   Competitive Sourcing – regularly examining commercial activities
       performed by the government to determine whether it is more efficient
       to obtain such services from federal employees or from the private
       sector;

   •   Improved Financial Performance – accurately accounting for the
       taxpayers’ money, giving managers timely and accurate program cost
       information to make informed management decisions, and controlling
       costs;

   •   Expanded Electronic Government – ensuring that the federal
       government’s annual investment in information technology (IT)
       significantly improves the government’s ability to serve citizens, and
       that IT systems are secure, and delivered on time and on budget; and

   •   Budget and Performance Integration – ensuring that performance is
       routinely considered in funding and management decisions, and that
       programs achieve expected results and work toward continual
       improvement.

      The third initiative, “Improved Financial Performance,” includes
provisions for agencies to determine the extent of improper payments and to
establish goals for reducing them.



       16
        Excerpts from the PMA were taken from an OMB report, entitled The Federal
Government is Results-Oriented, dated August 2004.




                                       – 32 –
         APPENDIX IV




– 33 –
         APPENDIX IV




– 34 –
         APPENDIX IV




– 35 –
         APPENDIX IV




– 36 –
         APPENDIX IV




– 37 –
         APPENDIX IV




– 38 –
                                                         APPENDIX V


          OFFICE OF THE INSPECTOR GENERAL
                    AUDIT DIVISION
     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
                   TO CLOSE REPORT


       The responses to our draft report from JMD, OJP, the BOP, the
FBI, and the USMS, as consolidated by JMD, appear in Appendix IV. In
their responses, the components agreed with all 22 of our
recommendations and each component described corrective actions it
has taken or intends to take to close the audit recommendations. Also
attached to the component responses was documentation to support
some of the responses. Due to its volume, we have omitted these
documents; however, they can be obtained by contacting the Office of
the Inspector General.

     The status of the individual recommendations and the
responsible components are as follows:

1.     Closed (BOP).

2.     Closed (BOP).

3.     Closed (OJP).

4.     Resolved (OJP). This recommendation can be closed when we
       receive documentation that OJP has conducted a complete
       program inventory and performed a risk assessment for each
       identified program.

5.     Closed (OJP).

6.     Closed (FBI).

7.     Resolved (FBI). This recommendation can be closed when we
       receive documentation that a copy of the FBI’s Desk Guide for
       invoice processing procedures has been provided to all relevant
       employees.

8.     Closed (USMS).

9.     Resolved (USMS). This recommendation can be closed when
       we receive documentation that the USMS has conducted a


                                 – 39 –
                                                          APPENDIX V

      complete program inventory and performed a risk assessment
      for each identified program.

10.   Closed (USMS).

11.   Resolved (USMS). This recommendation can be closed when
      we receive formalized policies and procedures from the USMS for
      the implementation of an ongoing internal review program,
      which includes transaction testing.

12.   Resolved (JMD). This recommendation can be closed when we
      receive documentation that JMD has developed and implemented
      a Department-wide recovery audit policy, including the scope,
      types of payments, and criteria to be included in each
      component’s recovery audit program.

13.   Closed (JMD).

14.   Resolved (BOP). This recommendation can be closed when we
      receive documentation that the BOP has developed and
      implemented written policies and procedures for its recovery
      audit program, in accordance with guidance received from JMD.

15.   Closed (BOP).

16.   Resolved (OJP). This recommendation can be closed when we
      receive documentation that OJP has developed and implemented
      written policies and procedures for its recovery audit program, in
      accordance with guidance received from JMD.

17.   Resolved (OJP). This recommendation can be closed when we
      receive documentation that OJP’s recovery audit program
      addresses and includes a review of grant payments.

18.   Closed (OJP).

19.   Resolved (FBI). This recommendation can be closed when we
      receive documentation that the FBI has developed and
      implemented a comprehensive recovery audit program, including
      written policies and procedures, in accordance with guidance
      received from JMD.

20.   Closed (FBI).



                                – 40 –
                                                      APPENDIX V




21.   Resolved (USMS). This recommendation can be closed when
      we receive documentation that the USMS has developed and
      implemented a comprehensive recovery audit program, including
      written policies and procedures, in accordance with guidance
      received from JMD.

22.   Closed (USMS).




                              – 41 –
